<html>
<title> - COMBATING DRUG ABUSE AND DRUG-RELATED CRIME: WHAT IS WORKING IN BALTIMORE?</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
    COMBATING DRUG ABUSE AND DRUG-RELATED CRIME: WHAT IS WORKING IN 
                               BALTIMORE? 

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON DOMESTIC POLICY

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 1, 2007

                               __________

                           Serial No. 110-69

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

44-006 PDF                      WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 







































              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
TOM LANTOS, California               TOM DAVIS, Virginia
EDOLPHUS TOWNS, New York             DAN BURTON, Indiana
PAUL E. KANJORSKI, Pennsylvania      CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         JOHN M. McHUGH, New York
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             TODD RUSSELL PLATTS, Pennsylvania
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      DARRELL E. ISSA, California
BRIAN HIGGINS, New York              KENNY MARCHANT, Texas
JOHN A. YARMUTH, Kentucky            LYNN A. WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   VIRGINIA FOXX, North Carolina
    Columbia                         BRIAN P. BILBRAY, California
BETTY McCOLLUM, Minnesota            BILL SALI, Idaho
JIM COOPER, Tennessee                JIM JORDAN, Ohio
CHRIS VAN HOLLEN, Maryland
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director

                    Subcommittee on Domestic Policy

                   DENNIS J. KUCINICH, Ohio, Chairman
TOM LANTOS, California               DARRELL E. ISSA, California
ELIJAH E. CUMMINGS, Maryland         DAN BURTON, Indiana
DIANE E. WATSON, California          CHRISTOPHER SHAYS, Connecticut
CHRISTOPHER S. MURPHY, Connecticut   JOHN L. MICA, Florida
DANNY K. DAVIS, Illinois             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
BRIAN HIGGINS, New York              BRIAN P. BILBRAY, California
BRUCE L. BRALEY, Iowa
                    Jaron R. Bourke, Staff Director
























                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 1, 2007..................................     1
Statement of:
    Franklin, Lena M., director of Recovery in Community; Rita C. 
      Fayall, program coordinator Meet Me Half Way Village 
      Center; Leon Faruq, program director of Operation Safe 
      Streets East; and Sheryl Goldstein, director mayor's Office 
      on Criminal Justice........................................    12
        Faruq, Leon..............................................    20
        Fayall, Rita C...........................................    15
        Franklin, Lena M.........................................    12
        Goldstein, Sheryl........................................    25
    Heller, Ellen M., Circuit Court Administrative Judge, 
      president of the American Jewish Joint Distribution 
      Committee; Jamey H. Weitzman, Associate Judge, District 
      Court of Baltimore City; David W. Young, Associate Judge, 
      Baltimore City Circuit Court; Dr. Joshua Sharfstein, 
      Commissioner of Health of Baltimore City; and Dr. Philip J. 
      Leaf, professor, Johns Hopkins Bloomberg School of Public 
      Health.....................................................    45
        Heller, Ellen M..........................................    45
        Leaf, Dr. Philip J.......................................    68
        Sharfstein, Dr. Joshua...................................    61
        Weitzman, Jamey H........................................    51
        Young, David W...........................................    60
Letters, statements, etc., submitted for the record by:
    Faruq, Leon, program director of Operation Safe Streets East, 
      prepared statement of......................................    22
    Fayall, Rita C., program coordinator Meet Me Half Way Village 
      Center, prepared statement of..............................    17
    Franklin, Lena M., director of Recovery in Community, 
      prepared statement of......................................    14
    Goldstein, Sheryl, director mayor's Office on Criminal 
      Justice, prepared statement of.............................    28
    Heller, Ellen M., Circuit Court Administrative Judge, 
      president of the American Jewish Joint Distribution 
      Committee, prepared statement of...........................    48
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, prepared statement of...................     4
    Leaf, Dr. Philip J., professor, Johns Hopkins Bloomberg 
      School of Public Health, prepared statement of.............    70
    Sharfstein, Dr. Joshua, Commissioner of Health of Baltimore 
      City, prepared statement of................................    64
    Weitzman, Jamey H., Associate Judge, District Court of 
      Baltimore City, prepared statement of......................    53


    COMBATING DRUG ABUSE AND DRUG-RELATED CRIME: WHAT IS WORKING IN 
                               BALTIMORE?

                              ----------                              


                        MONDAY, OCTOBER 1, 2007

                  House of Representatives,
                   Subcommittee on Domestic Policy,
              Committee on Oversight and Government Reform,
                                                     Baltimore, MD.
    The subcommittee met, pursuant to notice, at 9 a.m., in 
Ceremonial Moot Court Room, University of Maryland School of 
Law, 500 West Baltimore Street, Baltimore, Maryland, Hon. 
Dennis J. Kucinich (chairman of the subcommittee) presiding.
    Present: Representatives Kucinich and Cummings.
    Staff present: Jaron R. Bourke, staff director; Charles 
Honig, counsel; and Jean Gosa, clerk.
    Mr. Kucinich. Good morning. The Domestic Policy 
Subcommittee of the Committee on Oversight and Government 
Reform will now come to order.
    Today's hearing will examine innovative approaches to 
combating drug abuse and drug related crime in Baltimore.
    Now, without objection, the Chair and other Members will 
have the opportunity to make opening statements, followed by 
statements of the witnesses not to exceed 5 minutes.
    Without objection, Members and witnesses have 5 legislative 
days to submit a written statement or extraneous materials for 
the record.
    And without objection, we will be joined on the dais by 
Members not on our committee for the purpose of participating 
in this hearing and asking questions of our witnesses.
    I want to begin by recognizing the considerable 
contributions of Congressman Cummings in organizing this 
hearing. Congressman Cummings' commitment to his home city of 
Baltimore, as you know, is profound.
    This is only the most recent of field hearings on the 
city's efforts to combat drugs and crime that he has helped 
this committee to convene. These hearings continue to be 
important, both because of the pressing issues facing Baltimore 
and what this city's experience tells us about national drug 
control and violence prevention efforts.
    As we all know, the levels of drug abuse and drug related 
violence in Baltimore are unacceptably high. It is estimated 
that 60,000 of Baltimore's 650,000 residents are drug 
dependent, mostly abusing heroin and cocaine. By many metrics, 
Baltimore is the most violent major city in the country and 
recent indicators are troubling. Non-fatal shootings and 
juvenile shootings are up and, most tragic, homicides have been 
creeping upwards since 2002. The city is on pace for more than 
300 murders for the first time since 1999.
    Five years ago our predecessor subcommittee held a field 
hearing in the War Memorial Building to examine what is termed 
Baltimore's innovative drug demand reduction strategy. Since 
then, ``The Wire'' has allowed a larger audience to learn about 
some versions of the Baltimore drug and crime problems.
    In some respects, this hearing involves the same themes as 
the earlier hearing. It looks at city-led and community-wide 
efforts to provide effective drug treatment and in particular 
the role of drug treatment courts in this process.
    It also highlights how crime reduction efforts are part of 
the solution. Back then it was methadone provision. Now it is 
buprenorphine.
    By focusing here on drug treatment, the coordinated 
provision of services and community-based violence prevention, 
I do not want to suggest that law enforcement and policing 
strategies are not crucially important; they are even if they 
are not the main subject of this particular hearing.
    In this subcommittee, we will look at the ways in which 
Federal policies, including the Tiahrt amendment and inadequate 
gun ownership registration, are stalling the efforts of local 
law enforcement to remove illegal drugs from the streets. In 
addition, criminal justice is not just policing. As the highest 
criminal court coordinator will explain, there are many other 
effective strategies. Nonetheless, drug abuse is largely a 
public health problem, and combating drug abuse is dependent on 
a coordinated strategy to offer at risk individuals multiple 
services.
    Put another way, because drug abuse and drug related 
violence have multiple causes, programs and strategies to 
combat them must be multifaceted and provide multiple services 
in a coordinated fashion. Not just drug treatment, but job 
training, financial assistance, and referrals to mental health 
facilities when needed.
    Similarly, to combat gangs and prevent violence it is not 
enough to place people behind bars. Instead we need to develop 
programs that ensure that youths stay in school, learn to 
resolve their differences peacefully, stay off drugs, and plan 
for a career.
    That is the insight behind what our witnesses will 
variously term wrap around services or provision of a spectrum 
of services. A panel of witnesses will introduce a lot of these 
programs today. And they will discuss initiatives operated by 
community groups and faith groups.
    This committee will also hear from a panel of judges who 
together have been most instrumental in Baltimore's successful 
implementation of drug treatment courts. Drug courts have been 
an effective route for coordinating criminal justice agencies, 
mental health, social agencies, and treatment communities to 
provide multiple services. Drug courts demand accountability 
from their participants and are sophisticated about monitoring 
outcomes and ensuring best practices as to how to operate.
    The judges will describe efforts to improve these courts by 
providing more rapid evaluation and treatment referrals, a 
wider array of participants and expanded services. They will 
also explain how the problem-solving court model is being 
applied to children and families in juvenile drug courts, teen 
courts, truancy reduction courts and family courts.
    Important questions are raised by the simultaneous 
development of judicially led problem-solving courts and non-
judicial programs that aim to provide a similar spectrum of 
services.
    They are working at now to coordinate existing services in 
order to prevent wasteful replication. Further demands of 
collaboration and coordination have been reflected in 
institutional changes, and there are other challenges specially 
for the Federal Government. Does the government adequately fund 
drug treatment and types of institutions like drug courts that 
have been shown to be effective? Does the Federal funding 
process hinder the development of programs that provide 
multiple services because these programs naturally need grants 
from multiple Federal funding sources?
    Breaking the cycle of drug addiction and violence in 
Baltimore or in any other city, for that matter, is an immense, 
but not an insurmountable task.
    Understandable frustration about the persistence of these 
problems should not blind us to the fact that those who care 
passionately about this city, church members, social workers, 
judges, public policy advocates alike, and Congressman Elijah 
Cummings, have made progress identifying types of interventions 
that work.
    To help, the Federal Government must be attentive to what 
is working. That is what we are going to hear about today.
    At this time, I am pleased to introduce the gentleman who, 
in so many ways, has brought to the forefront matters of great 
concern to this community. He has brought them to the U.S. 
Congress and he has demanded that Congress pay attention. 
Whether it is health matters, housing matters or matters that 
relate to criminal justice and drug treatment and prevention, 
Congressman Elijah Cummings has been there and I am so grateful 
to Congressman Cummings, Elijah, to be with you here today in 
your home area, about this community you love so much about the 
matters that you are so concerned about. So the Chair 
recognizes Congressman Cummings.
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Cummings. Thank you very much Mr. Chairman. And I want 
to thank you and I am sure the audience is well aware that you 
were the former mayor of Cleveland, OH, so you are familiar 
with many of these problems.
    I want to thank you for holding this vitally important 
hearing to seek out the best practices for combating drug abuse 
and drug related violence.
    I also want to thank the University of Maryland Law School. 
Dean, I thank you for hosting us this morning.
    As you already know, violent crime is on the rise 
nationwide. According to a report recently released by the 
FBI's Uniform Crime Reporting Program, robberies surged in 2006 
by 7.2 percent, homicides rose by 1.8 percent and violent 
crime, overall, rose 1.9 percent. Taken together, 2005 and 2006 
represent the first steady increase in violent crime since 
1993.
    Here in Baltimore we have seen incidents of violence and 
gang activity increase at a record breaking pace. As of now, 
more people have been killed in Baltimore this year than at 
this time last year. We will not know for sure what has caused 
this national spike in crime until a full analysis is 
conducted, however, there are many things that we do know from 
the decades we have spent working to bring peace to our 
community. However, in Baltimore's inner city, the inner-inner 
city, I have seen the young men in my neighborhood lured into 
prison instead of college by illegal drug traffickers. I've 
also seen the young women seduced by addiction into selling 
their bodies on our streets. It is almost impossible for me to 
express how deeply I am troubled by this waste of human life.
    Drug abuse and drug related violence have destroyed whole 
generations in our community and in so many communities across 
the country. Not only has it destroyed communities, but it has 
brought a lot of pain.
    As you know, Congressman Kucinich has stood for several 
years as ranking Democrat in the predecessor committee to this 
committee, the Subcommittee on Criminal Justice, Drug Policy, 
and Human Resources. We are all acquainted with Representative 
Congressman Souder, who was the Chair then, and of course 
Congressman Souder is from Indiana. And we tried to identify 
the best practices in our national effort to stamp out the 
scourge of illicit drugs. You would assume that a Congressman 
from a rural Indiana town would have little in common with a 
Congressman from the inner city of Baltimore, and in many ways 
that would be correct. However, Congressman Souder, a 
Republican, and I were able to find common ground in our 
efforts to identify drug treatment and prevention strategies 
that work.
    Congressman Souder's community is plagued mostly by 
methamphetamine addiction, whereas cocaine and heroin addiction 
are more common here, but the result is still the same. Drug 
abuse and drug related violence know no boundaries. They are 
equally destructive to all communities, Black, White, rural and 
urban.
    In our past oversight investigations, we have frequently 
turned to Baltimore City, historically a leader in implementing 
innovating drug treatment and prevention strategies. Chairman 
Kucinich, I sincerely appreciate your willingness to continue 
that tradition today.
    This morning we will hear from the individuals on the 
ground who are responsible for providing drug treatment and 
services. We will hear testimony regarding a highly effective 
drug treatment court model for which the State of Maryland has 
been a national leader.
    Providing comprehensive drug treatment to non-violent 
offenders has been shown to stop drug related violence before 
it even starts. In this process we will also examine the 
emergence of other problem-solving courts, such as truancy 
courts and teen courts, which are aimed to address the needs of 
at risk youth. Finally, we will hear from city leaders on the 
identification and implementation of best practices, with such 
groundbreaking efforts as the Baltimore Substance Abuse System 
[bSAS]. Since it was established in 1990, bSAS has been in the 
forefront of harm reduction efforts. I applaud its recent 
efforts to widely distribute the highly effective, low risk 
opiate dependency treatment, buprenorphine.
    Baltimore's Mayor Sheila Dixon has long been a leader in 
our shared fight against illegal drugs. I fully expect that the 
Mayor will continue to implement an aggressive drug control 
strategy that builds on the success of the past while meeting 
the new challenges we face. And I look forward to learning more 
about that strategy today.
    I find it unconscionable that we are spending billions of 
taxpayer dollars to fight terrorism overseas while failing to 
address the terrorism right here in our own backyards. That, 
Mr. Chairman, is why it is so critically important that we hold 
hearings like this one.
    Again, I agree with you that the programs that we have 
found in the past are the most effective and efficient of those 
that provide holistic treatment and services to our 
constituents.
    I thank you again for holding this vitally important 
hearing. And I thank all of our witnesses for being with us 
today.
    And it's my understanding, Mr. Chairman, that many of the 
law student friends will have to be leaving us to go to class 
at 10. So I hope that everybody will understand that these are 
the future lawyers of America and we want them to get every bit 
of knowledge that they possibly get, as much as we would love 
to have them with us.
    And I want to thank all of you for taking your time to be 
with this morning.
    With that, Mr. Chairman, I yield back.
    Mr. Kucinich. Thank you very much, Congressman Cummings.
    And to those who are scheduled to go to a class, thank you 
for being here for the beginning of this hearing.
    Are we going to have all the lights turned off? That is not 
the way I work. OK.
    So as people are filing out, we will give you a chance to 
file out and then we will start with the introduction of the 
witnesses.
    By the way, as you are leaving, this committee meeting is 
being taped and it will be on our committee Web site. So you 
will have a chance to watch it if you are on your way to class 
and can't be here for today.
    I am going to begin by introducing our first panel.
    Is it Lena or Lena?
    Ms. Franklin. Lena.
    Mr. Kucinich. Lena Franklin is director of Recovery in 
Community, a Baltimore substance abuse treating center that 
provides multiple services to its patients. She received a 
fellowship from the Weinberg Foundation 2007 for her work. 
Recovery in Community is one of three grassroots centers that 
makes up Baltimore city's Threshold to Recovery Program. 
Threshold centers offer a nontraditional holistic approach to 
substance abuse recovery with a range of options including all 
night 12 step meetings, acupunture, mediation, tai chi and 
buprenorphine.
    Rita Fayall, welcome. Currently works as program 
coordinator for the Meet Me Half Way Village Center, a program 
founded by her husband which provides mentoring and family 
support services for students and families of Garrison Middle 
and Forest Park High Schools. Mr. Fayall is a long time 
grassroots community organizer and activist in northwest 
Baltimore where she has worked to help residents and 
stakeholders organize and take action to improve the quality of 
life for themselves and their families. Meet Me Half Way is 
part of Project Garrison, a faith-based, community-based 
nonprofit dedicated to advancing public safety faith-based and 
economic development initiatives in northwest Baltimore.
    Leon Faruq, welcome, is currently the program director of 
Operation Safe Streets East, a shooting and homicide reduction 
initiative in east Baltimore. He also serves as the director of 
reentry services for the Living Classrooms Foundation where he 
oversees pre-release and post-release services for juvenile and 
adult ex-offenders. Mr. Faruq was founding director of Respect 
Outreach Center, a community-based ex-offender run reentry 
organization. He's a member of the mayor's Ex-Offender Steering 
Committee, Maryland Division of Corrections Useful Offender 
Initiative Task Force and Baltimore City's Ex-Offender 
Employment Steering Committee, and is an Open Society Institute 
fellow.
    Sheryl Goldstein, is that correct? Was appointed director 
of the Mayor's Office on Criminal Justice in February 2007. 
Welcome. Prior to her appointment she worked for the Center for 
Court Innovation, a public/private partnership with the New 
York State Unified Court System that focuses on problem solving 
initiatives. At the center she created and operated a 
community-based mediation center in Crown Heights, Brooklyn, 
helped develop community justice centers in Red Hook and Harlem 
and assisted criminal justice agencies, governments, NGO's and 
community groups. She has also served as criminal justice 
coordinator to the Baltimore County Executive Jim Smith, worked 
on legal reform in Kosovo and litigated criminal cases for 6 
years.
    I wanted to thank all of the witness for being here, and 
thank those who are in attendance in the audience.
    It is the policy of the committee on Oversight and 
Government Reform to swear in all witnesses before they 
testify. I would ask that you would rise and raise your right 
hands.
    [Witnesses sworn.]
    Mr. Kucinich. Thank you.
    Let the record reflect that the witnesses answered in the 
affirmative.
    And I will ask that the witnesses now give a brief summary 
of your testimony. I want you to keep in mind that this summary 
should be kept 5 minutes or under in duration, but also your 
complete written statement will be included in the record of 
this hearing.
    Ms. Franklin, let us begin with you. And again, thank you 
so much for your presence here today. You may proceed.

    STATEMENTS OF LENA M. FRANKLIN, DIRECTOR OF RECOVERY IN 
COMMUNITY; RITA C. FAYALL, PROGRAM COORDINATOR MEET ME HALF WAY 
VILLAGE CENTER; LEON FARUQ, PROGRAM DIRECTOR OF OPERATION SAFE 
STREETS EAST; AND SHERYL GOLDSTEIN, DIRECTOR MAYOR'S OFFICE ON 
                        CRIMINAL JUSTICE

                 STATEMENT OF LENA M. FRANKLIN

    Ms. Franklin. Thank you.
    Recovery in Community, Inc., is a program that started in 
Baltimore City with funding from the Abell Foundation and 
Weinberg Foundation in 1999 in three of the oldest southwest 
Baltimore neighborhoods in southwest Baltimore, which was 
Franklin Square Fayette Street Outreach and Boyd Booth.
    The program was designed with input from the community as 
well as representatives from Health, Human Service and law 
enforcement agencies. After locating to its permanent site in 
1999, it began to offer services to the community itself.
    Recovery in Community differs significantly from the major 
existing drug treatment outpatient programs in that it provided 
from the beginning a street outreach component as well as 
transitional housing. Because one of the things that was found 
in, I guess we would call needs assessment prior to the program 
opening, was that traditional outpatient when looking at 3 to 6 
month involvement that did not address all of the other 
barriers, a lot of the barriers in terms of treatment, that it 
was not useful. The community did not see it as useful. And 
also our experience tells us, that is, people are involved in 
treatment that if we do not address the barriers, then it sets 
up the likelihood that they are going to be continuing to 
recidivate or, you know, keep coming in and out because all of 
the things that they need are not being addressed.
    So a big part of what we do at Recovery in Community is the 
piece where we do concentrate on comprehensive case management 
in addition to the outreach, in addition to the transitional 
housing and nontraditional kinds of services inclusive of 
acupunture, as was talked about before.
    The process is also an ongoing thing in that we do not look 
at finite level or finite times that people are in treatment. 
Recovery in Community expects that when folks walk through the 
door they make a commitment, as we make a commitment to them, 
they make a commitment to us for at least 1 year. So as a part 
of our service we see that the graduation that we do at the end 
of 1 year being enrolled in treatment as well as whatever time 
it takes them to achieve 9 consecutive months of clean urines, 
that we do a huge graduation where we do the dedicated speaker, 
the dinner inviting the family, community everybody. Because we 
see that it's a great accomplishment to so many of our folks, 
you know not having ever finished something and to be able to 
be allowed to celebrate it with their family, friends and 
community.
    As a part of the concept of Recovery in Community also 
we're not just looking at the individuals that are identified 
or effected with the substance abuse problem. Because, as we 
know, substance abuse effects everybody not just the 
individual, but the families as well as the community. So it's 
always one of my things that if I ever forget, or start to 
forget, what it is that I'm doing all I have to do is remember 
the name Recovery in Community. Because unless we are 
addressing all of the community in terms of families, 
individuals and the neighborhoods themselves, then we're really 
not doing a good job I don't feel in dealing with the problems 
as we see them.
    We have had since we began treatment in 1999, 257 folks 
that have completed the 1-year minimum and 9 months of 
consecutive clean urines. And of those 257, 203 of them were in 
traditional housing. And so it just kind of indicates to us how 
important transitional housing is as a part of this process.
    As you talked about it in my introduction, we're also 
involved in the Threshold to Recovery project. And we see that 
as a natural extension of what we do. We don't see our 
involvement with our client, again, is just in these increments 
of 3, 6 months that kind of thing. We truly believe that in 
order for people to continue that continuum of recovery in 
being and getting the support, that we can't just talk about 
the treatment part of it. We also have to talk about the 
recovery part of it. Because as you know, with all of the 
difficulties that people experience as a result of their 
substance use; employment, housing, family support, all those 
kinds of things that, again, we have to address that it takes 
time for folks to be able to get back on the level ground and 
the footing that allows them to maintain recovery in the long 
run.
    So we design our program, as we continue to develop our 
program and to bring in other initiatives or to be involved in 
other initiatives as a Threshold to Recovery, then it's very 
apparent to us that we have to continue our efforts in 
developing programs with community input with other agencies, 
social services agencies within our community. We have 
collaboratives with employment services, with legal services, 
with the family treatment or the family health center that is 
located in our community as well.
    Did I do 5 minutes. OK. But I think that in a nutshell kind 
of gives you an overview of what it is that we do.
    [The prepared statement of Ms. Franklin follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Kucinich. Thank you very much for your testimony, Ms. 
Franklin.
    Ms. Fayall.

                  STATEMENT OF RITA C. FAYALL

    Ms. Fayall. Meet Me Half Way Village Center is a school-
based mentoring and family support program run by community 
residents. Operating from the basements of Garrison Middle and 
Forest Park High School in northwest Baltimore, center staff 
mentors students and coordinate wraparound services for the 
students, their families and neighbors.
    Meet Me Half Way operates full time during the school day. 
The Program impacts youth, drug abuse and violence prevention 
by providing mentoring, career exploration and other positive 
alternatives and provides interventions through counseling, 
referral and support services.
    Center staff conduct conflict resolution sessions and 
lunchtime conversation circles. There is a kinship support 
group for grandparents and other relative care givers, 
individual and family counseling, grief support groups and GED 
classes.
    Welding, printing and carpentry equipment has been 
purchased or denoted to introduce youth to trades and career 
exploration. Licensed community professionals volunteer their 
time to perform the services or classes for the students.
    According to the director, 90 percent of what the staff 
does is listen.
    That is what is unique about Meet Me Half Way. Students say 
this is the one place where adults actually listen to children. 
Until very recently the staff did not even realize the impact 
the program has relative to drug usage, drug related crime or 
gang violence until one student shared that she spends so much 
time in the basement because it is one of the few places where 
she is not being recruited by gang members. Other then admitted 
that there are recruiters in the building and that this is a 
serious issue for students.
    Last week when a girl was beaten by several girls, she 
returned 2 days later with nine girls to attack her own cousin 
because she did not join in to help the fight. The cousin was 
reluctant to have staff call her mother because she said her 
mother would make her fight each of the 10 girls individually 
while the mother stood guard to make sure it was fair fight. 
The cousin is the young lady who is trying to resist gang 
involvement.
    Last summer, four youth workers returned from lunch 
admittedly under the influence of marijuana and were sent home 
for the day. Rather than terminate the young men ages 15 to 17, 
program staff decided unanimously to give them the option to 
undergo drug testing and treatment for the duration of the 
summer work assignment as a condition of their continued 
employment. Program staff collaborated with a nearby treatment 
facility and each youth accepted the offer.
    One was reluctant to submit to the test because he was 
already on probation through the courts and because he believed 
the treatment was not really going to make a difference because 
he said all the people in his house smoke marijuana.
    Sometimes it is the parents who seek help from Meet Me Half 
Way. In two separate runaway cases within the past few months 
program staff have helped parents to secure residential 
placement and treatment for the students on the very day they 
were located.
    All these cases are fairly representative of issues faced 
by Meet Me Half Way staff and clearly illustrate the need for a 
comprehensive approach that involves family and community 
stakeholders.
    To maximize the impact in combating youth drug and gang 
involvement, the program's parent organization Project 
Garrison, Inc. coordinated a drug-free community coalition 
following the guidelines set forth by SAMHSA. On this past 
Saturday a Recovery Walk was held on Park Heights Avenue in 
Baltimore to celebrate recovery. Over 350 people participated 
in the walk sharing their support and appreciation for the 
support of those in recovery.
    Meet Me Half Way has just started its fifth school year and 
conflict resolutions are down from 61 in September 2005 to 17 
this September. Out of school suspensions are down by over 83 
percent. Last year student attendance improved and an 
unexpected result, teacher attendance also improved.
    Thank you.
    [The prepared statement of Ms. Fayall follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Kucinich. Thank you very much for your testimony.
    Mr. Faruq.

                    STATEMENT OF LEON FARUQ

    Mr. Faruq. Thank you.
    Operation Safe Streets is based on the CeaseFire model to 
reduce shootings and homicides in high risk neighborhoods. The 
model has five core components: Community coalition building, 
street outreach, public education, clergy involvement and law 
enforcement collaboration.
    The program seeks to create behavior change and shift the 
social norm that violence is acceptable through repetitive 
prevention messages and concrete services that support and give 
credibility to the message.
    The key message is that shooting is not acceptable in our 
communities. Operation Safe Streets site focus on Police Post 
221 in the southeast police district. This area is selected 
based on its high rate of violence including homicides and 
shootings. We deliver stop shooting messages through our 
outreach workers, community leaders, posters and flyers. We 
also emphasize that this message at Safe Streets events. Our 
workers are on the streets Tuesdays and Wednesdays from 2 p.m. 
until 10 p.m. and on Thursdays, Fridays and Saturdays they're 
on the streets from 6 p.m. until 2 a.m.
    Our outreach workers are hired from the community. They are 
working with similar backgrounds to those who they are trying 
to reach. These are individuals who are respected n the 
community. The outreach workers both deliver the message that 
shooting is not OK and are able to interrupt and de-escalate 
volatile situations before they lead to violence. We have four 
outreach workers in our site, four full time and one part time.
    The workers identify at risk individuals, they canvas the 
neighborhoods, they case manage clients, they work with youth 
and they identify and they mediate conflicts in the community.
    An example of a conflict mediation one of the outreach 
workers recently mediated a conflict between two groups related 
to a theft of a drug stash. The situation escalated to the 
point where friends were involved and violence was threatened. 
The outreach worker was able to bring both subjects away from 
their friends and engaged them in mediation where they 
discussed the situation and talked about the issues and 
misunderstanding relating to the conflict. And the situation 
would have likely ended in violence was resolved in a peaceful 
manner.
    We have over 20 conflict these kind of mediations, and most 
of them in my opinion I believe they would have led to 
violence.
    Workers continue to monitor situations and are prepared to 
intervene again if needed.
    We organize a response to shootings in our area. The 
response emphasize the message that shootings is unacceptable 
and bring the community together and heals community spirit. 
Responses can be a vigil, a march or some other kind of 
activity.
    We also conduct community events such as midnight barbecue, 
movie nights and basketball tournaments. Our most recent event, 
Peace Night Out, included a community resource area, free 
drinks non-acholic, free food, a dance contest and musical 
performances. The event drew a crowd of approximately 250 
community members and stressed the importance of reducing 
shootings and homicides in the targeted area.
    The community oriented events promote confidence in the 
program and allow community members to take ownership of the 
program and its message.
    Operation Safe Streets have been operating in the east side 
of Baltimore in this part of McElderry Park since June 2007. At 
that time there had been five shootings in that targeted area, 
and Operation Safe Street had responded to each shooting by 
galvanizing community members to deliver the message that 
shooting is not OK.
    There have been between 65 and 200 community members at 
each of these shooting responses. In addition, Operation Safe 
Streets have held four community events in a targeted area 
since June with between 175 and 300 residents attending these 
events. The program has handed out over 5,000 public education 
materials. Outreach workers have mediated over 20 conflicts and 
assure that these conflicts did not result in shootings and 
homicide.
    We are optimistic that this program, we have an impact in 
reducing homicides and shootings in Baltimore.
    And thank you for your time and attention to this important 
issue.
    [The prepared statement of Mr. Faruq follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Kucinich. Thank you very much for your testimony.
    Our next witness is Ms. Goldstein.

                 STATEMENT OF SHERYL GOLDSTEIN

    Ms. Goldstein. Thank you. Good morning, Mr. Chairman and 
Congressman Cummings.
    I appreciate the subcommittee's desire to help cities like 
Baltimore reduce violence, and I thank you very much for the 
opportunity to testify here today.
    Baltimore is a city with many strengths, but we also have 
some serious challenges. Gang culture and criminal activity are 
threats to the many law abiding citizens of our city and they 
create some long term challenges because gangs recruit young, 
and young people who commit crimes often spend their entire 
lives on the wrong side of the law. Many never could finish 
school, many have very limited employment options. And 
unfortunately, all too many end up in jail or becoming the 
victims of violence.
    Preventing juvenile crime, combating gang activity and 
reducing youth violence in Baltimore City requires a citywide 
effort, including local, State and Federal agencies, social 
service providers, community-based organizations, faith-based 
groups, neighborhood associations, community leaders, residents 
and youths. And it is really my privilege to sit on a panel 
with three people who represent community-based organizations 
that are in the trenches doing this work. Because without 
partnerships with people like you who have been out there and 
are working with the people, the city could never be 
successful, or nearly as successful in combating violence and 
helping the people in our community. So I thank you and applaud 
what you are doing.
    We must all work together to address health concerns, 
substance abuse, criminal justice, recreation, employment and 
other socio-economic issues confronting Baltimore's youth.
    What we see in Baltimore today is that youth involvement in 
gangs and violence is a growing concern. Police estimate that 
we have over 50 known criminal street gangs with over 1,500 
adult members. This number is an interesting number in that 
last year we had 170 known criminal street gangs. We are not 
losing criminal street gangs, they are just becoming more 
organized in identifying themselves as Blood sets and Crip 
sets. And so while the numbers are growing, the gangs are 
actually become more organized.
    School policy estimate that we have 600 high school 
involved in 60 gangs. Six hundred youth involved in gangs in 
middle schools and elementary schools.
    Juvenile violence and juvenile crime is also on the rise. 
Last year 9,000 young people were arrested and put in the 
juvenile justice system. A third of those young people were 
arrested for substance abuse related crimes.
    Juveniles account for nearly 20 percent of all people 
charged with adult felony gun charges this year. And even more 
disturbing is that Baltimore City has experienced a 64 percent 
increase in juvenile shooting victims and juvenile shooting 
suspects from last year.
    Mayor Dixon has adopted a multifaceted approach to combat 
gangs and youth violence. The strategy includes law enforcement 
and prosecution components which are not the focus of this 
hearing, but recognizing the police and prosecutors cannot do 
this alone.
    Mayor Dixon's administration supports gang and juvenile 
crime reduction through outreach, community partnership and 
providing opportunities to those who choose to take positive 
steps toward realizing their full potential. The goal is to 
create a full continuum of services and supports, starting at 
creating opportunities for young people and others to keep them 
out of the system entirely, keep their lives free of crime, 
engage in positive opportunities as well as programs and 
systems that will intervene with young people who get in 
trouble with the law at all points in the system.
    In my written testimony I have presented a number of 
different programs, and I wanted to highlight a few of the 
really promising programs that we have research and data on for 
the committee.
    One of the main initiatives under Mayor Dixon starting in 
January of this year was to create more outreach opportunities. 
One of the things that we find is that there are many people 
who want to access opportunities and services but can't get 
connected, don't know about those opportunities.
    Mr. Faruq just testified about Operation Safe Streets. With 
the support of Federal funding, Baltimore City has been able to 
launch two Operation Safe Streets sites. The east side site 
started in July and we have just funded a site on the west side 
of town as well.
    This program is modeled on Chicago's CeaseFire, which is an 
outreach program to prevent and reduce homicides and shootings. 
It is a program that really focuses on having people who have 
street credibility, who are either ex-offenders or who have 
been involved in gangs in the past out on the streets at 
nontraditional times when most people are out on the streets 
and conducting outreach to try to get people to make different 
choices and to link them with different support, such as 
substance abuse treatment, job training, job opportunities so 
that they change their lifestyle.
    In Chicago, CeaseFire achieved reductions in shootings of 
between 25 and 67 percent in different communities. And we are 
optimistic that we will see these same results here in 
Baltimore.
    Baltimore is also partnering with grassroots organizations 
that have been working on the ground and have been successful 
just on their own reaching out to people to try to get them out 
of the lifestyle and connected with positive supports. So far 
the city has partnered with and has funded programs such as 
Reclaiming Our Children & Community Project, Precision Youth 
Power, On Our Shoulders and New Vision Youth Services. These 
four programs are an example of programs that were started by 
people who used to be in gangs or were in the criminal justice 
system who wanted to change their lives and change other 
people's lives. And we are continuing to build those 
partnerships, investment in those programs to help people to 
change their lives.
    Another program that I want to talk about is the Health 
Department's Office of Youth Violence Prevention runs a program 
called Operation Safe Kids.
    Operation Safe Kids was developed in response to young 
people who were at risk of violence. The program really seeks 
to engage young people who are in the juvenile justice system 
as an alternative to placement or detention, and it is focused 
on young people who are either likely to be victims or 
perpetrators of violence.
    What we find in these young people is that many of them 
have multiple prior arrests, five or six for CDS and other 
types of offenses. And many of them have their first arrest as 
young as age 13.
    The outcomes of this program are promising. The total 
arrests for young people in the program after their first year 
dropped by 32.9 percent. Arrest for drug crimes dropped 41.2 
percent. And arrest for violent crimes dropped 44 percent.
    One of our other lessons learned by that program is that 
for every 10 percent increase in employment of participating 
youth was associated with a 20 percent drop in arrests, which 
takes me next to looking at our Mayor's Office of Employment 
Development.
    The Mayor's Office of Employment Development has really 
taken a leading role on providing opportunities for young 
people who are at risk of not completing school or out of 
school. The Youth Opportunity Centers have reconnected over 
1,000 youth each year who have dropped out of school to a broad 
menu of academic, personal growth and employment opportunities. 
Our Futures program serves nearly a 1,000 young people each 
year who are at risk of dropping out of school and keeps them 
in school. And 5,000 city teens are employed each summer 
through the Mayor's Office of Employment Development's Youth 
Work Summer Jobs Program.
    These programs all have proven to reduce dropout rates and 
to reduce arrests.
    So I see that my time is up. And if there are any 
questions, I would be happy to answer them.
    Thank you.
    [The prepared statement of Ms. Goldstein follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Kucinich. I want to thank Ms. Goldstein for her 
testimony.
    And maybe what I could do is to begin with questions of 
you. What percentage of at risk children in Baltimore do you 
estimate are served by the more aggressive multi-service 
intervention, be it in Teen Court or Operation Safe Kids, and 
has these saturation services reached the point where you can 
see an improvement in overall social indicators like school 
attendance, new drug indication, gang affiliation, level of 
violence?
    Ms. Goldstein. Sir, these programs reach a very small 
number of children. Operation Safe Kids reaches about 100/150 
kids a year, our Teen Court service about 200 kids a year. So 
while they are programs that are successful with the young 
people they intervene with, it is a very small number of young 
people who are receiving those services. And so in terms of 
saturation services, absolutely not. We would certainly need 
more support and funding for that.
    Mr. Kucinich. You have broad experience in New York and 
other localities. Can you tell us how Baltimore compares to the 
other localities in criminal justice strategies and the 
services it offers? And does it offer more programs that have 
been shown to work?
    Ms. Goldstein. I think it is hard to make those types of 
comparison. I think that Baltimore has a number of programs. It 
has actually recently started a number of programs that are 
successful for the small populations that it serves.
    New York City, you know which is probably my best basis of 
comparison, has a broader scale and scope of programs. It 
serves a larger number of people.
    I think Baltimore has faced many challenges in terms of 
trying to serve these populations. And the more support that we 
could obtain from Federal sources would be greatly appreciated.
    Mr. Kucinich. Let me go to that then. What can the Federal 
Government do better to help support criminal justice and 
public health strategies that work?
    Ms. Goldstein. I think a few things. First, you know, I 
think as Congressman Cummings began at the hearing, you know 
it's really a holistic approach. And we need more after-school 
opportunities for young people. You know the data shows that by 
the time these kids are 13 it is almost too late in terms of 
trying to intercede. So we need more opportunities for young 
people, more early intervention and prevention program, more 
opportunities earlier on.
    And then as you can see even from my description, the 
programs that we have developed here are intervention programs 
for kids who are already in the system. We have not had the 
resources to do real prevention programs for the young person 
who is first stopped by police. You know, for the very first 
time they should not even be arrested, but could be referred to 
a service program to meet their needs. So certainly early 
intervention and more opportunities are needed.
    Mr. Kucinich. Thank you.
    Mr. Faruq----
    Mr. Faruq. Yes, sir.
    Mr. Kucinich [continuing]. I can see from background that 
you spend time out on the street.
    Mr. Faruq. Right.
    Mr. Kucinich. And you are talking to these young people.
    Mr. Faruq. Yes, sir.
    Mr. Kucinich. Can you relate to us what are they thinking? 
What is it that draws them into the violent crimes and the drug 
abuse? If you could characterize it in a few minutes, how would 
you characterize what is going on in the street with these 
kids?
    Mr. Faruq. You know, they characterize it that they are 
trying to eat. Their characterization is that they are trying 
to eat. They do not see a lot of opportunities in trying to 
negotiate the system to come for some success with a meaningful 
lifestyle. So they think that they do what they do best or know 
best.
    So, hopefully, some of the things that we want to do is to 
partner with them to show them there is something different. 
And to take their hand and partner with them to get to 
negotiate the system to try to unveil opportunities. To show 
that there's hope.
    And, you know, them seeing the outreach workers, used to 
sharing their lifestyle and that outreach workers having turned 
their lives around and doing something different, then that is 
an example of hope. If he can do it, I can do it. So there is 
hope presented in the outreach worker who used to be on that 
side of it.
    And for many of them, do not have hope, you know. So also 
with the hope is the possibilities that it is possible for me, 
too.
    But their characterization is that they are trying eat, so 
they are trying to make a living. You know, they are trying to 
get money. But, you know, the thing that we want to do is that 
they can this without risk, without going to jail.
    Mr. Kucinich. My time has just about expired and I am going 
to go to Mr. Cummings for questions. We are going to have one 
more round of this panel, Mr. Cummings, so we can get all the 
witnesses' reflections.
    I just want to say that while your testimony focuses on 
what you are doing to try to help deal with the situation with 
drug abuse and violent crimes, I think it is important for us 
to try to get under it and ask some questions about why. 
Because we may learn something from that as well, and you are 
the ones that are dealing with these young people every day. I 
think you have some reflection, and that is why I asked those 
questions.
    The Chair recognizes the gentleman from Maryland, Mr. 
Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    As I was listening you, Mr. Faruq, a lot of people do not 
know this but I met Mr. Faruq many, many years ago in prison 
when I was teaching a course for Compton State many years ago. 
And I thought about something that is in the movie ``Sicko''. 
And going back to what you just said, Mr. Chairman, and in that 
movie by Michael Moore a parliamentarian from England said 
something that is so profound. They were trying to figure out 
why, for example, do we have universal health care, some form 
of it, in France and in England but not America. And he said 
something to this effect. He said, first of all, the people 
would rise up if they didn't have it. But then he said if you 
keep people sick, unhealthy, if you keep them uneducated and if 
you keep them hopeless and helpless, they will not rise up.
    And when I think about all that you are saying, this whole 
thing of holistic, I want you to talk about the holistic piece. 
I think you have talked about, Ms. Franklin, and I think all of 
you hit on it to a degree.
    One of the things that I have noticed is that you can get--
it seems like even when we pull, that we are able to folk 
saying not to use drugs. You have to have something to replace 
that. And going back to what you said, Mr. Faruq, one of the 
things you got to establish is hope. Because when people are 
not hopeful, that is a real problem.
    So going back to, Ms. Franklin, how do you or Ms. Fayall, 
how do you all get to that piece? You know, how do you get that 
piece where a person perhaps has fallen or is falling and then 
you are able to get them at least hold the falling, stop the 
falling for a moment, but then get them back on the right 
track? Because you talked about 257 people who I think you said 
has successfully stayed clean for a whole.
    Ms. Franklin. Completed the program.
    Mr. Cummings. And you said 203 were in transitional 
housing.
    Ms. Franklin. Yes.
    Mr. Cummings. Housing is one thing. I mean, we are talking 
about basics.
    Ms. Franklin. Right.
    Mr. Cummings. So go ahead.
    Ms. Franklin. And that is what we're talking about, we are 
talking about basics. But the real basic that we are talking 
about in Recovery in Community is providing a community of 
support so that the program does not just stop just because you 
have completed your 12 months or whatever, however long it 
takes you to get to that point. It is about providing a place 
where people can be if they pass or fail in success or failure 
so that, you know, understanding that as a part of the process 
of recovery that is a process.
    I look at it as any other chronic illness, chronic disease, 
diabetes, hypertension all those kinds of things. We do not 
beat people up because they do not stick to their dietary 
regiment in diabetes. We understand. Very clearly we understand 
that once you got it under control, then what happens with is 
that we make a decision well I am doing good now, I can just go 
back to my old habits. We do not beat people up for that. But 
we beat people up for that in terms of substance abuse, in 
terms of relapse and that kind of thing.
    Now that is not to say that relapse has to be a part of it, 
but we need to understand that relapse sometimes is a part of 
it. And what we do, what we can do in that process in terms of 
support or we can make them feel even worse than they already 
feel and alienate them from the treatment process or we can 
help them to stay in the process and understand that you are 
not failure just because that happened.
    The whole thing of, you know, looking at all the things 
that are impacted. We also know that a number of our folks are 
impacted with mental health issues. That we have gone out into 
the community and gotten folks that are interested and willing 
to provide mental health services to our folks who do not have 
insurance or who are eligible for insurance under the gray 
zone, whatever, with the mental health services. But again----
    Mr. Cummings. I see my time is running out. Yes.
    Ms. Franklin. Yes.
    Mr. Cummings. But let me just ask this question. The other 
thing I am very concerned about, you know one of the things 
that has always concerned me and we have seen it in Washington 
when people come just doing some investigations that we have 
done, we have seen sometimes people providing services, 
services like drug treatment and in some instances the drug 
treatment is not what it ought to be. And people are making a 
profit. The addict is not getting properly treated.
    And in talking to addicts that I have known, they tell me 
that if they go into something that they find to be false or 
they think it is just not the real deal, that it sets them even 
further back. Yes.
    Ms. Franklin. Yes.
    Mr. Cummings. Maybe in the future answering of questions 
you all can get into that a little bit.
    And the other piece that I am concerned about is how do we 
interact with the various agencies? I mean, sometimes I think 
that what we do is we set up situations, we almost set 
ourselves up for failure. In other words, if I have an agency 
that is doing this and doing well, how much interaction with, 
say, the job component do I work with; the health community, do 
I work with? I mean things that are already in place for people 
who are experts. I am not saying that you do this, but 
sometimes I think that what happens is we are trying to do so 
much but if we zeroed in and a better interaction and like a 
web of services coming to truly wraparound the people who are 
experts on these things, so if somebody needs I can send them 
to somebody that is all they do is find people job and train 
them. If they got health thing--you know, you hate to be 
sending people to different places. But if they are got to help 
them, perhaps if they are suffering from some chronic disease, 
sending them to the appropriate place for that.
    Again, going back to what the parliamentarian said in 
``Sicko'', uneducated, unhealthy, hopeless and helpless. And I 
think if we can get, going back to what you were saying Mr. 
Chairman, to some of those things and truly provide a safety 
net for them, I think you can get to the bottom of some of 
this.
    Mr. Kucinich. We will take one more round of questions for 
this panel.
    I would like to go back to a discussion that you started 
with Ms. Franklin relating to the mental health issues. These 
young people we are talking about, they are living in an 
environment where there is a lot of violence, where the 
violence might be inside the home as well as outside the home, 
while people in the home may not have a secure sense of 
economic vitality, may not have jobs, right?
    Ms. Franklin. Yes.
    Mr. Kucinich. They are likely not to have health care, 
right?
    Ms. Franklin. Yes.
    Mr. Kucinich. That kind of an environment is really ripe 
for mental health problems for anyone.
    Ms. Franklin. Yes.
    Mr. Kucinich. And would you agree with that?
    Ms. Franklin. Yes, I would, absolutely.
    Mr. Kucinich. So these young people if we are looking at 
looking at young people in situations where they could become 
at risk, one of the areas that we should be looking to and 
we're seeing is access to mental health.
    Ms. Franklin. Yes. Absolutely.
    Mr. Kucinich. Tell me more about your experience in that, I 
mean if you can think of any cases in particular.
    Ms. Franklin. Well, we do not treat young adults.
    Mr. Kucinich. I understand.
    Ms. Franklin. OK. But one of the issues, what we do with 
that is that we work within the community, within the community 
where we are. And, you know, there are a couple of hospitals 
and community mental health centers that are right there that 
we take advantage of that we have our clients to be able to go 
there without having to go through a bunch of barriers to 
access and treatment, as well as providing space in the 
facility for those community folks to come in and provide 
mental health services to our people, as well as to the 
families, the children the other folks that are impacted that 
are associated with our clients that are involved in treatment 
at our program. And we see that working very well.
    As a matter of fact, we have been fortunate that we have 
been able to raise some funds to develop a community mental 
health center right across the street from where we are. And 
one of the providers that has been coming in to see our clients 
has agreed to set up an office there that is not only going to 
treat and be available for the folks that we see, but for the 
folks in the surrounding community. So it's not going to be 
just for adults, but it's going to be for children and anybody 
who is in need of mental health services and they have the 
ability to be able to find out their eligibility for coverage 
for their mental health services medications as well as 
treatment. So that is one of the outcomes that we have had that 
has been very successful with having mental health as an 
integral part of what we do. Because we know that people are in 
need of those services just because of the circumstances in 
which you have so elegantly describes: You know, in just living 
in a situation like that will set you up for----
    Mr. Kucinich. Right. It is a tough society out there for a 
lot of people, particularly for children.
    Ms. Franklin. I am sorry?
    Mr. Kucinich. I said it is a tough society out there for a 
lot of people, particularly for children.
    Ms. Franklin. Absolutely. Absolutely.
    Mr. Kucinich. And these programs that you are setting up 
where it is a sense of prevention and then referral become----
    Ms. Franklin. Right.
    Mr. Kucinich [continuing]. Life savers for young people.
    Ms. Franklin. Yes, we are.
    Mr. Kucinich. Congressman Cummings and I have had this 
discussion about looking at drug addiction as, first, a health 
problem. It can be a physical and emotional health problem. And 
if it is delegated, it ends up being a criminal justice 
problem. Would you agree with that?
    Ms. Franklin. Yes, I would. Absolutely.
    Mr. Kucinich. I have a minute for another question here. I 
wanted to Ms. Fayall how do students end up in your program? Is 
it voluntary or----
    Ms. Fayall. It is voluntary. They also can be recommended 
or referred by administration. We have a membership of 1,100 
students who have voluntarily come down and joined the center. 
And it is just not for troubled youth. We help them with 
anything that is on their minds. It could be something like 
starting a new club, a dance group; anything that they want to 
do, anything that they are having issues with. It can be health 
related. We help families to meet their basic needs. We do 
perform the wrap around services. We have outreach to all kinds 
of agencies. We have a retired social worker who is on staff 
who provides the resources that the students need to get what 
they want.
    Mr. Kucinich. Now in your written testimony you state that 
suspensions are down 83 percent after the implementation of 
your program. Do you attribute this decrease to improvements in 
student behavior or the provision of alternative sanctions to 
your program?
    Ms. Fayall. The first year that we were there the policy 
was in force yet. But the students were able to come down. The 
one thing we do, we offer in-house suspension so that instead 
of sending the children home or out on the streets, they come 
downstairs. They're out of the student population. And while we 
have them down there, we work on the issues that led to the 
behavior in the first place rather than punishing the behavior 
or trying to find out specifically what is going on, meet the 
need where the student is and literally meet them halfway.
    Mr. Kucinich. Thank you very much.
    Mr. Cummings.
    Mr. Cummings. Yes. Ms. Goldstein, the gang situation. You 
were talking about one of the programs and you were saying in 
answer to the chairman's question that there was a limited 
number of young people that you could help, is that right?
    Ms. Goldstein. Yes.
    Mr. Cummings. And so that means that there are probably a 
lot of people who need the services but do not get them.
    Ms. Goldstein. Absolutely.
    Mr. Cummings. Do you have any idea what kind of numbers we 
are talking about? I think you said it was a hundred and 
something that you are. What program was that?
    Ms. Goldstein. I think we were talking--if you look at just 
the school dropout rates, for example. You know in Baltimore 
City, as we know, our graduation rate is about 50-60 percent. 
And when we look at our programs that serve our out-of-school 
youth in terms of education and employment opportunities, we 
are serving 500,000 young people a year. So just looking at 
that universe there are so many young people who are out of 
school and who are susceptible to those types of opportunities, 
as Mr. Faruq said, because they do not have other opportunities 
or hope. That is a huge number.
    Mr. Cummings. What would you all like to see us do on the 
Federal level to help you address these problems?
    Ms. Goldstein. I think we need more resources to create 
what you have talked about, which is a seamless web of services 
so that we can catch young people early and provide them 
opportunities to stay on the right path.
    And I think one of the struggles that you were talking 
about is you have different people who have different areas of 
expertise and they need to be connected up. But research also 
shows that if you send people to five different places, they 
don't often get there. And so the challenge is sort of creating 
one stops. You know, one stop shops where you can colocate 
people who have that expertise so that they can provide the 
maximum services to that group of folks.
    And I would say that really what we need is more funding 
opportunities to support those types of initiatives so that we 
can help people before to keep them in school, to keep them out 
of trouble and then to catch young people at all places along 
the system to give the supports and services they need in a 
holistic fashion.
    Mr. Cummings. Mr. Faruq, with regard to mediation, you 
talked about trying to get to folk before they get into some 
very violent situations. Do you find folk open to that? It 
seems like that would be very difficult at times?
    Mr. Faruq. Actually, when you got the right people it is 
very easy.
    The guys that we choose have a lot of credibility with the 
population that we are targeting. They have a lot of influence. 
In some cases, they even have command.
    So when issues erupt and they present themselves, they are 
in a situation where, first, they already got the respect. So 
they are in a strategic position where they can mediate from 
all sides because all sides respect them, you know. And they 
take their word at heart.
    And I think this has emerged as a real cornerstone in our 
approach. Because it is preventive. You know, in most of the 
incidents that we have mediated, you know that come out with 
peaceful resolution, even to the extent where we have mediation 
where guys hugged and shook hands after they was threatening 
each other.
    Mr. Cummings. Yes.
    Mr. Faruq. You know, I would also like to add that with 
this approach is a public health approach. And what it does is 
to try to sift a behavior norm. You know, violence is a learned 
behavior. You know, so with credible messages, with a credible 
message we try to change the behavior. You know, in the same 
way that the smoker who was changed by having this credible 
message, dominated the person with the message and then all of 
a sudden the expectations about smoking changed. You know, 
drunk driving the same thing.
    And so it is with violence, you know, that we can change 
how people look at violence. That people can begin to see that 
they can have another outcome and there are other options other 
than violence.
    You know, when we have people that they used respect 
representing that, talking that, pushing that and we dominate 
environment with this message, that we can bring about a 
change. It's so evident in Chicago.
    Mr. Cummings. And so you take them to a bigger picture?
    Mr. Faruq. Yes, sir. Yes, sir.
    Mr. Cummings. All right. Well, I thank all of you.
    And, Mr. Chairman, I just say that there were a number of 
people who wanted to testify, but the limitations of these 
hearings limited it. So I am hoping that we will be able to get 
some of their written testimony and get it into the record.
    Mr. Kucinich. Thank you, Mr. Cummings.
    We certainly want to invite the testimony of those who are 
interested in this. And we have 5 days to do that. So ordered.
    I want to just make a brief comment before we dismiss this 
first panel.
    Mr. Faruq, you started to talk about violence being learned 
and nonviolence can also be learned. I mean, that is what Dr. 
King's life was about, that is what the teachings of Christ and 
Gandhi were about.
    There's a proposal in the Congress, H.R. 808, to create a 
Cabinet level department of peace and nonviolence. And it 
directs itself to these domestic issues of domestic violence, 
spousal abuse, child abuse, violence in the schools, gang 
violence, gun violence, racial violence, violence against gays, 
police/community clashes. And I would just recommend for your 
interest a bill which I'm the author of, and I believe Mr. 
Cummings is one of the co-sponsors of. Because it really 
reflects the deep understanding that you have about how you can 
teach nonviolence just as people learn violence. That is a very 
important observation. I think everyone here on the panel 
understands that, and I just wanted to share that with you.
    On behalf of the committee, I want to thank the witnesses. 
Not only for their testimony, but for the service which they 
give to the people of this community in providing a path for 
hope and recovery. So thank you.
    And at this point we will dismiss the first panel. Staff 
will prepare for the second panel. We are going to actually 
combine the second and third panels to facilitate the testimony 
of some of our witnesses.
    I would ask all those in the audience to please join me in 
expressing appreciation for the first panel.
    [Recess.]
    Mr. Kucinich. The committee will come to order, please. 
Thank you.
    I want to welcome our second and third panel of witnesses 
for coming forward. And I would like to begin with the 
introduction of this panel, so those who are in the audience 
can understand the significance of having this distinguished 
group of people here to testify.
    I will begin by introducing the Honorable Ellen M. Heller. 
She was appointed as a Circuit Court Judge for Baltimore City 
in December 1986. She became the Judge in charge of the civil 
docket in 1993 and served in that position until 1999. She 
became the first woman in Maryland to be appointed as the 
Circuit Administrative Judge overseeing the entire court, that 
was in 1999. Although Judge Heller retired in December 2003 she 
continues to sit part-time as a trial judge and coordinates and 
sits on the Felony Drug Diversion Initiative. Prior to her 
appointment on the bench she served as an Assistant Attorney 
General of Maryland and was Deputy Chief of the Educational 
Affairs Division. Judge Heller is currently president of the 
American Jewish Joint Distribution Committee which provides 
humanitarian assistance to both Jewish and non-Jewish 
communities globally.
    The Honorable Jamey H. Weitzman has served as Associate 
Judge of the District Court of Baltimore City since 1991. She 
founded the first drug treatment court in Maryland in 1994 and 
continues to serve as its supervising judge and developed Teen 
Court, which provides alternative sentencing for troubled 
youth. Judge Weitzman designed and chaired Maryland's Drug 
Treatment Court Commission and serves as Chair of Maryland's 
Problem Solving Courts Committee. She's the author of Drug 
Courts: A Manual for Planning and Implementation. Serves on the 
faculty of the National Judicial College. And has lectured 
nationally and abroad regarding therapeutic justice and drug 
courts.
    The Honorable David W. Young has been Associate Judge of 
the Baltimore City Circuit Court since 1996 where he presides 
over the Baltimore City Juvenile Drug Court and has worked on 
developing the city's Family Dependency Drug Courts. He's Vice 
Chair of the Foster Care Court Improvement Implementation 
Committee. Prior to his current appointed Judge Young served as 
Associate Judge with District of Court of Maryland and 
Assistant City Solicitor to Baltimore. He's taught at the 
University of Baltimore School of Law. Has been a long time 
trustee of the Bethal AME Church and member of the Board of 
Directors of the YMCA of Greater Baltimore.
    Dr. Joshua Sharfstein has served as commissioner of Health 
of Baltimore City since December 2005. From 2001 to 2005 he 
worked on the Democratic Staff of the Government Reform 
Committee of the House of Representatives for Congressman Henry 
A. Waxman.
    So, just want you to know there's a future after this.
    Dr. Sharfstein is a graduate of Harvard Medical School, 
trained in pediatrics at the Boston Medical Center and 
Children's Hospital and completed a fellowship in general 
academic pediatrics at Boston University.
    Dr. Philip J. Leaf is a professor in the Johns Hopkins 
Bloomberg School of Public Health with joint appointments in 
the School of Medicine, the School of Professional Studies in 
Business and Education and the Kennedy Krieger Institute. At 
Johns Hopkins he is director of the Center for Prevention of 
Youth Violence, co-director of the Center for Prevention and 
Intervention, senior associate director of the Urban Health 
Institute. For two decades Dr. Leaf has worked with community 
groups, schools systems, law enforcement officers, ex-offender 
groups and the faith community of strengthening families and 
communities and buffering the effects of violence over 
neighborhoods. In 1995 he received the Johns Hopkins University 
Martin Luther King, Jr. Award for community service for his 
work in Baltimore.
    I want to thank members of this panel. This is, indeed, a 
distinguished panel. And we are eager to hear your testimony.
    It is the policy of the Committee on Oversight and 
Government Reform to swear in all of our witnesses before they 
testify. So I would ask, if you will, to rise and raise your 
right hands.
    [Witnesses sworn.]
    Mr. Kucinich. Thank you very much.
    Let the record reflect that the witnesses have answered in 
the affirmative.
    As with the first panel, I asked that each witness give an 
oral summary of his or her testimony, bearing in mind to keep 
the summary to 5 minutes or under in duration. But your entire 
written statement will be included in the record of this 
hearing. And, again, our gratitude.
    We are going to begin with Dr. Sharfstein. We are going to 
begin with Judge Heller. OK. Go ahead, Your Honor.

  STATEMENTS OF ELLEN M. HELLER, CIRCUIT COURT ADMINISTRATIVE 
  JUDGE, PRESIDENT OF THE AMERICAN JEWISH JOINT DISTRIBUTION 
 COMMITTEE; JAMEY H. WEITZMAN, ASSOCIATE JUDGE, DISTRICT COURT 
 OF BALTIMORE CITY; DAVID W. YOUNG, ASSOCIATE JUDGE, BALTIMORE 
  CITY CIRCUIT COURT; DR. JOSHUA SHARFSTEIN, COMMISSIONER OF 
 HEALTH OF BALTIMORE CITY; AND DR. PHILIP J. LEAF, PROFESSOR, 
        JOHNS HOPKINS BLOOMBERG SCHOOL OF PUBLIC HEALTH

                  STATEMENT OF ELLEN M. HELLER

    Judge Heller. Thank you.
    Good morning, Chairman Kucinich and Congressman Cummings. I 
am very appreciative of the opportunity to address you today on 
behalf of the Circuit Court for Baltimore City, which is in 
Maryland the State trial court in Baltimore, a court of 
unlimited jurisdiction with civil, family, juvenile and Judge 
Young has been a long time Judge in the Juvenile Court, as well 
as the criminal docket.
    My testimony today is going to focus on the Felony Drug 
Diversion Program, a special initiative that was begun in 2003 
with great assistance, indeed I would say 100 percent 
assistance, from Congressman Cummings in response to a crises 
at that time that had hit the city. There had been a horrific 
murder of a family that had been reporting drug crimes in their 
neighborhood. But in addition, there were many drug arrests. 
The dockets were clogged. And there was a need to tweak what we 
already had in order to see what we could do.
    And out of the crises that occurred at that time, and 
unfortunately and the testimony today will indicate it is still 
there. For example in 2006 I got statistics and I was told 
there were 3,358 new felony drug offenses in the Circuit Court 
for Baltimore City alone. That doesn't include the misdemeanor 
drug offenses that Judge Weitzman will talk about, a high 
percent not abating. But we were looking for a model that would 
get the felony drug offenders, those not violent offenders who 
faced 5 to 20 years real time into a different situation that 
incarceration, where I am sure you are aware there is very 
little drug treatment especially in the State prisons, and 
there has been as long as I've been on the bench there has been 
almost no drug treatment for the incarcerated community, and 
where people were released with almost no support services, 
only to re-enter once again.
    So we worked as a team. And I heard this morning 
Congressman Cummings talk about the need just a few moments ago 
to work as a team. This court couldn't have been developed 
without them and continuing now a positive relationship between 
the partners in the criminal justice system, the Office of the 
Public Defender, the Office of the State's Attorney, the 
Division of Parole and Probation, the Division of Corrections, 
Baltimore Substance Abuse systems just all the way down the 
line to come up with a new variation on the umbrella drug 
treatment court. And let me tell you quickly the features.
    We wanted to make sure within a month of arrest we were 
going to have an individual into treatment. And, again, these 
are people who have long records, felony charges who faced 5 to 
20 years incarceration. We were able to do that.
    We found, although we had thought we were going to have a 
continuum of services that the population we were addressing 
needed long term residential structured placements. And they 
had to be quality of placements. We didn't want to set people 
up to fail and go back into the system. We were able to do that 
with the assistance of Baltimore Substance Abuse Systems. We 
only used placements that they have certified as adequate and 
appropriate.
    We wanted to have in-court assessors. Never in the history 
of Maryland have we put accessors in the court so that right 
there and then we could have people brought over within 30 
days. They were literally assessed in the morning. If found 
appropriate, brought down in the afternoon before the judge. 
Entered the program the very next morning because of the 
cooperation with the Division of Corrections actually 
transported by the division into a residential placement where 
they stayed for a minimum of 6 months. Twenty-four hour 
turnaround within a month of arrest. And we are still doing it.
    We have structured after care. We learned soon into the 
program that we needed more services as people succeeded.
    I also heard this morning there had to be hope and 
something to replace the drugs. And we did that with job 
training and liaisons with job opportunities.
    We started to evaluate and we continue each month to look 
at our statistics and have a meeting of that whole team. There 
is a very positive, cooperative nice to see environment with 
the State's Attorney and the Public Defenders talking with each 
other. The Division of Parole and Probation agents who are 
specially trained take a special interest in each of their 
clients.
    What are the achievements? In 2004 we had the largest 
number of people. Seventy-three percent successfully completed 
treatment, 86 percent of those who did complied with their 
conditions of probations.
    In 2007, 4 years down the line, 68 percent of our people, 
that's almost 70 percent, of either successfully completed the 
entire program or in successful good standing in drug 
treatment. That's a really fine statistic that we work on.
    Cost saving. In contrast to the $25,000 noncapital expense 
of incarceration. This, again, we are talking about residential 
long term care for a minimum of 6 months, our average cost for 
diversion is $6,535. So that is quite good.
    Are there needs? Yes. Needs for quality drug treatment 
programs.
    Need for job opportunities and employment for felony and 
criminal offenders so that they can qualify for them. Need for 
what we call dual diagnoses programs. Chairman Kucinich, mental 
health issues are a very large part of adult offenders. There 
is a shortage of programs. I have actually kept people 
incarcerated for months while we try to search a program that 
would take these so called dual diagnoses individuals. They 
almost do not exist.
    We need housing. I have a man right now who is almost 
finished our program, was in from the beginning. He is confined 
to a wheelchair. He has been drug free for 3 years. He has a 
job, notwithstanding his paralysis. He has no housing. He no 
longer qualifies because of his felony conviction. And he needs 
supportive housing.
    So I want to end. I think my time is up. But saying I thank 
Congressman Cummings for the chance to work with the team at 
the court. I think this is a program that can be replicated. 
And we are actually this year expanding it in the Circuit 
Court. It could be replicated across the country.
    And I also think that the services you talked about, not 
only help the offender, help the clogged dockets. They 
introduced back into the community productive, self-sufficient 
participants in our society.
    Thank you.
    [The prepared statement of Judge Heller follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Kucinich. Thank you, Judge.
    Judge Weitzman.

              STATEMENT OF JUDGE JAMEY H. WEITZMAN

    Judge Weitzman. Good morning, Chairman Kucinich and 
Congressman Cummings. I am honored to be able to testify and 
show off a little bit about what we're doing here in Baltimore 
City. Judge Heller has already elegantly spoke about Drug 
Court. It is one of my babies, too.
    Started it in 1994 and it is one of the first in the 
country. And the hallmarks of Drug Court are clear. It's 
immediate, intensive treatment and collaboration, intensive 
monitoring. And that famous word that I find to be of biblical 
proportions to me is holistic support systems.
    But I would also like you to consider some other programs. 
So by way of illustration, consider Alese, who was a 14 year 
old who was arrested for fighting in schools. And she already 
has a distinguished criminal history of thefts and disorderly 
conducts, and fighting, and five suspensions under her belt 
already, poor grades. So we've diverted her into Teen Court, 
which is a program that is run by children, staffed by 
children, all of the criminal justice positions are by the 
children and then the jury of their peers sentences. It 
provides a holistic sentence that tried to address the needs of 
the child, such as mandatory jury sentences, jury duty, peer 
mediation, anger management.
    We also have a social worker that is on staff to triage 
services to Alese and her family so that we can get to the 
underlying problems that are contributing to the criminal 
behavior.
    Teen Court has been running for the last 7 years in 
Baltimore City. Unfortunately, we can only handle 250 people so 
far, children. Just a drop in the bucket. But so far the 
statistics show tremendous success.
    How about the child named Alex? He already has 24 absentees 
in the last previous two quarters of school and 18 days of 
being tardy. He doesn't wear uniforms when he comes to school. 
He has an attitude. We find out that when he doesn't come to 
school, his little sister doesn't get to school either. So 
enter the truancy program which tries to provide support 
services to the child to try to find out why, what is causing 
this truancy. And then, of course, there is collaboration with 
the school system.
    So these three programs highlight just three of the problem 
solving programs in Baltimore City, but they really attempt to 
try to meaningfully effect children's lives by getting them 
away from the maelstrom and the cycle of violence and crime. 
But they are all significant because of the extreme 
collaboration, the wonderful collaboration of criminal justice 
and non-criminal justice partners such as business community, 
social clubs.
    I am proud to say in Drug Court, for example, we have a 
wonderful partnership with Goodwill Industries where they 
actually provide job training and placement for our folks so 
that they can get a meaningful wage and living. And it's so 
successful in Baltimore City that Goodwill is now trying to 
market this throughout the country.
    But do not make no mistake: These programs are not easy. 
This is not hug-a-thug justice, as Judge Young likes to say. It 
requires intense work and a lot of judicial monitoring and 
accountability of the defendants and the team members as well. 
But my passionate assertion of the effectiveness of these 
programs are really supported by numerous evaluations of Drug 
Court which show its success. We are making taxpayers. We are 
having drug free babies born to our folks. And so there's 
numerous, wonderful intended and unintended consequences to 
Drug Courts as well as the Teen Courts which we have.
    Truancy courts are a little young, but I have every reason 
to believe and do believe that they will benefit from the same 
success.
    The sum is definitely greater than the parts, and it costs 
money to run these. Nothing comes for free. And so if anything, 
I would ask that the Federal Government partner with us to 
provide more of these programs to the community.
    Thank you.
    [The prepared statement of Judge Weitzman follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Kucinich. Thank you, Your Honor.
    Judge Young.

                  STATEMENT OF DAVID W. YOUNG

    Judge Young. Good morning, Chairman Kucinich and 
Congressman Cummings.
    If I might just, I believe you said that I was a graduate 
of the University of Baltimore. I am actually a graduate of 
this fine institution where my classmate was Judge Heller, and 
one of our predecessors was Congressman Cummings.
    Mr. Kucinich. I thank the gentleman. And the record will be 
corrected to reflect that. Thank you.
    Judge Young. Thank you.
    Since 1998 the Baltimore City Juvenile Drug Treatment Court 
has offered comprehensive intensive outpatient drug treatment 
to juvenile offenders between the ages of 15 and 18. The 
exciting thing about Drug Treatment Court is it works. As Judge 
Weitzman said, we have a hard time explaining to people that 
Drug Treatment Court is not hug-a-thug, it is intensive. The 
participants in Drug Treatment Court in the initial phase of 
the three phase program are required to attend 5 days a week. 
They have an individual counselor. They are required to 
participate. They have an addiction counselor. Additionally, 
they are required to undergo random urine analyses, 
breathalyzers and to attend NA and AA.
    As if that's not enough, they are required to go to school. 
Each one of them is given an educational assessment. If they 
are in school, they are required to go to school. If they are 
not in school, they are required to go to either the YO 
program, the Youth Opportunities Program which is operated 
through the Mayor's Office of Employment Development or to the 
Baltimore City Community College.
    We also provide intensive services to families in the way 
of functional family therapy. And the one thing about Juvenile 
Court is there is a device called the Order Controlling 
Conduct. So if your child is court involved, the court does 
have within its authority that we can require the families to 
also receive services.
    We are also fortunate to have family intervention 
specialists who come to us through the Johns Hopkins 
University. And their job is to do a family assessment and to 
identify ongoing family needs. As was said earlier, addiction 
is a family disorder.
    We also have discovered that many of the youth 
participating in Juvenile Drug Treatment Court have mental 
health problems and they are, in fact, self-medicating. So we 
have a relationship with the University of Maryland Hospital. 
As a matter of fact, our drug treatment is conducted through 
the Harambee Drug Treatment Program, the addiction counselors.
    We also have a relationship with the Johns Hopkins 
University. Many of our participants do suffer from depression. 
Many of them have been diagnosed with ADHD. And so we take a 
comprehensive approach to addressing their needs. This is a 
collaborative effort. We have a dedicated State's Attorney, 
Prosecutor, a dedicated Public Defender. They always see the 
same judge, yours truly, but they have the same counselor.
    In addition, we do recommend them if they are in need of 
vocational training to one of the programs in the community. 
Judge Weitzman mentioned the Goodwill. We were fortunate to get 
a grant through the Administrative Office of the Courts that 
allows us to refer teenagers to the Goodwill Industries for job 
readiness. And quite a few of them have now actually been 
transferred into full time positions.
    There are needs. What they need? We need more inpatient 
treatment. Many times we refer youngsters to inpatient 
treatment, but there are only one or two programs that will 
take them. Additionally, even when they go they are released 
after, as short a period is 3 to 7 days.
    We need independent living programs so that they can be 
referred to independent living. Many of them are 18. They have 
no family or a fractured family to go home to.
    We need professionals who are college educated who have 
backgrounds in juvenile justice who want to work with young 
people rather than hiring people for whom it's not a calling, 
it's just a job.
    We need advocates at the national level, such as yourself 
and Congressman Cummings to say that children count and that 
drug treatment courts work.
    And finally, we do need more resources for after care. When 
youngsters graduate from the Juvenile Drug Court or they get a 
certificate of completion we need after care. It costs, I'm 
told, $68,000 a year for an out of home placement. And so we 
just need some resources to keep these people at home.
    I thank you for the opportunity address you.
    Mr. Kucinich. Thank you very much for your testimony, Your 
Honor.
    Dr. Sharfstein.

             STATEMENT OF DR. JOSHUA M. SHARFSTEIN

    Dr. Sharfstein. Thank you. Thank you very much, Chairman 
Kucinich and Congressman Cummings. I really appreciate the 
opportunity to be here. And I am also pleased that you heard 
about the Safe Streets program earlier today, which is run out 
of the Health Department.
    I am testifying as the health commissioner. And I think to 
look at some of these issues from a public health perspective, 
meaning across the whole city and looking at the whole need, I 
think the key word is capacity. How do you have the capacity to 
serve the people who need to be served so as many people as 
possible can turn their lives around? How do you wind up not 
just talking about individual programs that are making a 
difference for the people they are serving, but overall what is 
the need and are we meeting that need over.
    And I think when you think about capacity there are two 
ways to go. One is that there need to be more resources. No 
question about it. One of the ways that I think would make a 
difference, particularly for drug treatment in Baltimore, is if 
the State of Maryland passes the Medicaid expansion that's been 
proposed. Because Medicaid will cover at least outpatient 
substance abuse treatment. And there would be tens of thousands 
of more people in Baltimore who would qualify for drug 
treatment through Medicaid.
    There is also, you know, additional resources for drug 
courts, other things that would be extremely helpful. But what 
I am going to talk about in the next 3 minutes is an approach 
to capacity that does not necessarily require additional 
funding. It is using funding already in the system. It is using 
a new technology called buprenorphine that is available to 
provide highly effective treatment for heroin addiction, but 
necessarily in the substance abuse system, but actually in the 
medical systems. And Congressman Cummings has been a national 
leader in this because of the legislation that he sponsored.
    It used to be that every hospital could have 30 patients 
receiving buprenorphine. And then it became every doctor 30 
patients. And then it became 30 patients per year, and then up 
to a 100. This is any licensed physician in the city of 
Baltimore.
    So if you are thinking about capacity when you have all 
these limits to drug treatment; funding and locations in the 
drug treatment system. If you can tap into the medical system 
in Baltimore as a sponge to soak in patients, giving them very 
high quality treatment where the evidence is 6 months of 
treatment, 75 percent of them may be absent from drugs, from 
illicit drugs. It's just a huge potential impact of the city.
    So just briefly, we have been embarked for about the last 
year on a big effort to try to make this work in Baltimore. 
And, you know, if you can do that, that frees up resources in 
other places. I agree there are deficiency. We need more 
residential care. If we can shift some of our nonresidential 
care into the medical system, then we can free up resources to 
do that or for more people to come into the system.
    Buprenorphine is similar methadone in the sense that it 
stimulates the same receptors in the brain as heroin and can 
keep people without getting a high from really craving heroin. 
But it is different in the sense that at high doses it 
antagonizes itself. So it is very hard to overdose. In fact, if 
you give buprenorphine to someone high on heroin, it 
precipitates withdrawal. So the risk of abuse is much less. The 
risk of diversion is much less. And that's why they consider it 
safe for doctors in the substance abuse system to prescribe.
    In November last year we became the first city to pay for 
any doctors in training buprenorphine. And we have over 110 
physicians who have signed up for training around the city, and 
over 50 of them have completed through that effort.
    We have basically broken it into three parts. The first 
thing is the patient calls us needing help. They go into the 
substance abuse system as they did before for 3 or 4 months to 
intensely receive buprenorphine, counseling and other services.
    As soon as possible we get a social worker to meet with 
them and try to get them access to a very basic kind of health 
insurance, called the Primary Adult Care Program or Medicaid. 
So that they then will have the capacity to transfer into the 
medical system. This gets them health insurance that will at 
least provide for some of their other needs and then the social 
worker can help with other things to the extent possible.
    Every single patient in our effort has been through this 
process with the social worker.
    Then after 3 or 4 months they move to primary care or 
psychiatry where they can continue to receive a highly 
effective treatment while receiving their counseling back at 
the drug treatment center. At that point they become stable 
patients in primary care and you can use that spot in the drug 
treatment system for another person.
    So it is a cycle that brings more people into drug 
treatment and then uses the medical system in Baltimore as the 
sponge. And it is a collaboration between Baltimore Substance 
Abuse Systems, Adam Brickner its president is here, Baltimore 
Health Care Access which organizes the social workers and 
tracks every patient and the Health Department, which has taken 
a lead in trying to enroll people.
    The data is in the written testimony. Over 500 patients 
have come in. We have 91 patients now who have moved over into 
the medical system. And all those patients have other medical 
conditions addressed. And we have over 100 doctors signed up, 
and two residency programs in the city have committed to train 
all their residents.
    So there is a lot more to be done, but I think it is 
important for you to know how the Federal effort on 
buprenorphine is really having a big impact here in Baltimore.
    Thank you.
    [The prepared statement of Dr. Sharfstein follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Kucinich. Thank you very much, Doctor.
    Dr. Leaf.

                  STATEMENT OF PHILIP J. LEAF

    Mr. Leaf. Good morning, Chairman Kucinich and Congressman 
Cummings. Thank you very much for inviting me today.
    Before I run out of time, I want to highlight one of the 
things that was mentioned today in passing numerous times, and 
that is the role that Congressman Cummings played in the 
development and support of programs. And I want to emphasize 
not simply the funding that is available, but having a 
Congressman who comes home every night to live in this city who 
has close ties with lots of different kind of people here, and 
whose staff actually sits on many of the planning efforts that 
you are hearing about today. I think it has been one of the 
important implications, it is around information exchange. It 
is being able to access information and access information not 
just for those of us at academic institutions or on the city 
government, but in local community programs, the church groups, 
other groups.
    And I think one of the challenges is how to get information 
about the opportunities that are out there, whether it is 
Federal funding programs, whether it is best practices or 
whether it is things that are working in your child's school to 
people who really need to know those things. And I think 
Congressman Cummings is a wonderful example.
    We also benefit from having a Senator who lives in our city 
and up until recently had two Senators living in our city. And 
I think, again, at the information level, knowing what the 
problems are, their staffs are really critical.
    Increasingly, as you have heard, there is an agreement that 
we require multifaceted response, a response involving not only 
governmental agencies but also local school systems, providers 
of substance abuse, the mental health services, the faith and 
business communities, local institutions of high education, 
civic association, ex-offender and ex-offender organizations 
and parents, families and other caregivers. Local communities 
and States increasingly are calling for systemic interventions 
rather than programs. We have lots of programs. The issue is 
how to fund these in a systemic manner, how to sustain these 
and to expand the ones that are working so they can meet, as 
you have raised to the previous panels, the real needs that 
exist in these communities.
    We have lots of things that work. Often people do not know 
about them. Often the programs that work have difficulties 
sustaining themselves because sometimes they are funded by one 
time Federal funds for 3 to 5 years. And as Dr. Sharfstein 
said, sometimes our normal funding procedures whether it is 
Medicaid, State budgets or city budgets are not adopting as 
rapidly as possible and as rapidly as necessary these proven 
practices.
    So clearly we are talking about lots of different 
strategies. You have heard a little bit about the need for 
community mobilization, particularly by those living in the 
communities.
    We need social intervention programs. Programs that are 
supporting the full range of needs.
    In Baltimore we have many youth who are essentially 
homeless. Who move from different living circumstances 1 week 
to another week. Maybe living with an aunt 1 week. Maybe living 
with a friend another week.
    We also have lots of children have to move through fairly 
violent neighborhoods to get to school. And it is not 
irrational as our chief executive officer of our school system 
said at the Board meeting last week for youth having to move 
through some of these neighborhoods to be carrying a weapon. 
Not necessarily a gun, but a knife, a scissor, something that 
is going to get them expelled from school because it really is 
not safe for them to move to and from school. And clearly, that 
is not an issue for the schools themselves. That is going to 
require multiple government agencies, but also multiple 
communities.
    We do need service provision, but also we need 
opportunities provisions. We need employment opportunities. And 
has been mentioned, when we have individuals with multiple dual 
diagnoses, substance abuse/mental health problems, we need to 
use those strategies that have been shown effective for meeting 
those needs.
    We obviously need also suppression activities, but also 
organizational change in development. We all need to change the 
way we are working. And I think you have heard some very 
positive examples of how programs have organized themselves 
differently, have structured their funding systems differently, 
have changed their collaborations.
    Increasingly in the Baltimore City Public School system we 
are also focusing on the behavior of the adults. Essentially, 
as you have heard several people talk about, behaviors are 
learned. Violence is learned. Well, nonviolence is also 
learned. And we need to be training behavioral and problem 
solving skills in our schools, but we also need to be 
supporting the people in our faith community. The people in our 
neighborhoods who have traditionally taught nonviolence, who 
have taught problem solving, who have supported those most in 
need.
    Baltimore is paying increasing attention to the fact that 
many of the individuals to be reached our communities suffer 
not from a single problem, you have heard that today. In 
Baltimore we do not encounter an individual who only has a drug 
problem and others who have lots of assets and their deficiency 
is violence. We have people who commit crimes or engage in 
violence, do not have a lot of community supports and also have 
very limited aspirations. And, again, I think the role models 
are particularly important.
    It is essential that we think about how the Federal, State 
and local governments can be organized. But also supporting 
families, supporting neighborhoods, supporting communities.
    You have heard a lot about voluntary work. Many of the 
programs you have heard about today were supported or if not 
innovated through help with University of Maryland Law School, 
University of Baltimore Law School. Again, we are fortunate in 
Baltimore because we have wonderful educational institutions, 
faith communities, we have many city and State organizations. 
And I think some of the successes you heard today because we 
really do have the confluence of the multiple partners in this 
jurisdiction.
    [The prepared statement of Mr. Leaf follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Kucinich. Thank you very much, Doctor.
    I would like to start the questions with the Commissioner. 
How do you think the city's buprenorphine initiative fits in 
with the overall treatment philosophy? And is it a departure 
from programs like methadone maintenance or abstinence-based 
treatment?
    Dr. Sharfstein. I think it's a great option to have for 
patients. That it is very well established that almost--I would 
say most heroin addicts will do just as well on buprenorphine 
as methadone. There are some groups of people addicted to 
heroin who will probably better on methadone. It is very 
important to continue to have methadone as part of the 
approach. But buprenorphine, some patients prefer it. It is 
better tolerated in some respects. And because of the potential 
to engage the medical system, it creates this potential for 
really expanded capacity.
    Mr. Kucinich. Now you made free buprenorphine available, 
right, to every doctor practicing in Baltimore since October? 
Are you satisfied with the level of participation among 
doctors?
    Dr. Sharfstein. That is one of the areas, we made the pre-
training available. And I think we would like to see more 
doctors training. Right now it is not limiting the number of 
patients who can be seen. But I think we would like to see more 
doctors trained around the city.
    One of the ways we are hoping to do that is through the HIV 
program. The Ryan White money which comes in from the Federal 
Government. The local planning council is putting some strings 
on that money to try to make sure that it goes to clinics that 
really do prescribe buprenorphine.
    Mr. Kucinich. So with this free training what percentage of 
doctors participated?
    Dr. Sharfstein. Well, there are probably--there have to be 
at least a few thousand doctors in Baltimore City. And so far 
we have had about hundred plus a few sign up for training. So 
as an overall percentage of doctors, it is pretty low. We are 
looking particularly at internists, family physicians and 
psychiatrist. I would say we could definitely better.
    Mr. Kucinich. What kind of steps can the Health Department 
or others like the Federal Government take to improve 
participation?
    Dr. Sharfstein. Well, I think particularly you look at 
where the particular funding streams are. And I think the Ryan 
White funding stream, like I said, is a real opportunity. 
Because there is so much money coming in for treatment of 
people with HIV. And the evidence is that if people who are 
drug addicted and are also HIV infected if they are getting 
their drug addiction taken care of, they will stay on their HIV 
medicines better. They are less likely to infect someone else 
because they will not be sharing needles.
    So if we can take--you know, and basically I would like to 
have the expectation in Baltimore that it is like a required 
part of taking care of an HIV patient to have this as an option 
for the right patient to prescribe buprenorphine.
    Mr. Kucinich. So how many of Baltimore's drug addicted 
persons could benefit from buprenorphine?
    Dr. Sharfstein. Well we have, I think, the statistics I 
have seen about 70 percent of the people seeking treatment of 
heroin problems. So certainly I think right now we have about 
3,500 people in the publicly funded system on methadone 
everyday in Baltimore. And I think easily we could double or 
triple that with buprenorphine if we could get that kind of 
capacity.
    Mr. Kucinich. Thank you.
    Now Judge Heller, prior to the development of the Circuit 
Drug Courts and the Felony Drug Diversion Initiative would the 
individuals in the programs actually have served a substantial 
portion of their felony sentences?
    Judge Heller. That is not up to the courts. That is up to 
the Parole Boards. But I would say nonviolent offenders, about 
a third of their sentence. These days I think it is up to a 
half of their sentence that they would serve. The problem is 
they would spend, whether it is 2 years, 3 years, 6 years 
incarcerated time. And you would think that merely being 
incarcerated when someone reentered, they would be drug free. 
But that is not true. And there is virtually no drug treatment 
programs in the system.
    This is a long answer. Today we are focusing even for those 
who are in our programs like Felony Drug Diversion or 
Incarcerated with reentry support.
    Mr. Kucinich. If there were more funding just in your court 
based on demand and reasonable eligibility criteria, how much 
could you envision participation expanding?
    Judge Heller. Oh, I think enormously. I think I gave the 
statistic that in my court alone there were 3,358 felony drug 
offenses. This is nothing else. Pure drug offenses. So we are 
not talking about the robberies, the homicides, the gun. Most 
of those people in State court in contrast to the so called big 
traffickers and kingpins that are often in Federal court, are 
really addicted people who have mainly nonviolent, although 
long records who could benefit significantly diverting out of 
the system into a treatment program, and once again reentering 
this time with support for their addiction into communities.
    Mr. Kucinich. Now the after care portion FDI is funded 
largely through existing State, local and Federal funding. I 
assume that the funding streams for this treatment are not 
specifically earmarked for drug court referrals. Should they 
be?
    Judge Heller. You are getting a little out of my expertise.
    I think I would say yes. But I have to be honest. I have 
for 4 years, and this is one of the unfortunate challenges, you 
come with a program that succeeds, initial funding ran out and 
then we have been looking year after year, month after month, 
at every level city and State for support services. I sometimes 
think it is magic when the funding reappears. But it would be 
very nice if it was targeted so we know it was there to help 
these people.
    Mr. Kucinich. Right. OK. Thank you very much, Judge.
    Mr. Cummings and then we will have a second round of each 
panel as well.
    Mr. Cummings. You know, Dr. Sharfstein, buprenorphine. When 
one is treated with that if that is a person--and I am going 
back to Judge Heller and I think Judge Weitzman was saying, 
that a lot of times we have people who have a dual----
    Judge Heller. Dual diagnoses.
    Mr. Cummings. What do you call it?
    Judge Heller. Dual diagnoses.
    Mr. Cummings. Yes, dual diagnoses. And we have talked about 
that in our committee, in the Drug Committee when it existed 
about how people have a drug problem, but they also there's an 
underlying, and I guess it is the same thing, mental problem. 
too. Probably going back to childhood in many instances.
    So if we treat them with the buprenorphine, are we looking 
at that dual piece, too? Because I am just wondering whether we 
are just scratching the surface? You follow me?
    Dr. Sharfstein. Yes. And for some patients the answer is we 
are scratching the surface. For some patients they do very well 
in buprenorphine. They do not need a lot of intensive mental 
health treatment. Nationally about 40 percent of people with 
substance abuse have serious metal health problems and 15 
percent of people with mental disorders have substance abuse 
problems.
    Here is one of the big problems that is facing us in 
Baltimore. The system of funding for substance abuse and mental 
health are completely and utterly separate. They are not just 
separate, they are totally different types.
    Mental health is like an insurance program. Substance abuse 
comes in in grants. They have each of their own sets of 
requirements.
    The Federal level you have SAMHSA, which is at least one 
agency. The State level you have the Mental Health Agency and 
the Substance Abuse Agency.
    And, you know, maybe about 18 months ago somebody came to 
me from a different agency saying that their job was to 
coordinate the two agencies at the State level, and could I 
help, you know. And I mean I am not even at the State level. So 
I said ``Yes, I will do whatever it takes.'' But it is very, 
very difficult.
    I think just one of the ways we are seeing that is the 
frustration of the judges are having for certain patients. But 
across the system there is a real gap.
    We have renewed energy on this. We have a new head of 
Baltimore Mental Health System who just started, who was an 
Assistant Commissioner in New York. Who is really an expert in 
how to do better for people with dual diagnoses or co-occurring 
disorders. But there is no question it is a big frustration.
    In our report about buprenorphine initiative we identified, 
our goal was to have patients be free from heroin in their 
urine and able to move into primary care after 90 days. That 
was one of the targets we did not meet. And one of the reasons 
it has taken so long and why some patients have never been able 
to move over, like I told you 500 patients have started and 
about 100 have moved over into primary care, is we think that 
there are some patients who because of their mental health 
issues have not been able to be successful. So a big focus that 
we have now is to try to improve that mental health part. But 
the system works against us, I think.
    Mr. Cummings. Judge Weitzman, in your written testimony you 
talk about short term funding leads to short term results. What 
does that mean? Does that mean you cannot plan? I mean what 
does that mean?
    Judge Weitzman. The problem is multifaceted.
    Mr. Cummings. And Judge Heller, you might want to chime in 
on this also.
    Judge Weitzman. The problem is multifaceted and needs 
support from many different areas. And so just bursts of 
funding does not really get to the problem.
    So dribs and drabs of treatment, for example, where we need 
long term residential treatment for example does not help.
    We have multiple problems with dual diagnoses bucks. And we 
need mental health slots as well as substance abuse slots.
    One of the long term goals for my program in Drug Court is 
to have a community Drug Court haven, so to speak the one-stop 
shop where the folks do not have to go to many different 
multiple places to get their health. They are treatment and the 
courts, and the support services are one place which will help 
facilitate their wellness. Because they are not able to manage 
their lives as well. Plus money.
    Mr. Cummings. Let's say we know we need. We have somebody 
who needs the dual treatment. And they are doing everything 
they are supposed to do. Do they sort of just hang there until 
you get them the treatment? You follow what I am saying? Could 
year? I mean, years, months?
    Judge Heller. They can hang there and often with 
unsuccessful results.
    I have a woman that I was looking. She could not go in the 
community because she just could not make it. She had major 
psychiatric problems. We were looking for a dual diagnoses 
program. I had no where to keep but over in the Baltimore City 
Detention Center.
    She said to me when she would come in for the monthly 
monitoring, ``So I am incarcerated, Judge Heller, because you 
cannot find a program, not because I violated--'' well, 
originally she did or she would not be under the system. And I 
had to say ``That is right.'' She was kept there for 5 months 
waiting for us to find a program.
    On your other questions, Congressman Cummings, having short 
term funding is so important for a startup and creating 
programs. But here in Felony Drug Diversion we created a 
successful model that was working, and then the funding ran 
out. And it would have been very easy to say no. But we kept 
looking. I have to thank Dr. Sharfstein helping in part in the 
interim for funding. But replicating and then expanding the 
programs that worked is difficult if you only have short term 
funding.
    Mr. Cummings. Just one other question. You know, the 
interesting thing is, you know I am just sitting here and I am 
just thinking it sure would be nice to be able to prevent some 
of this. Because the cost to society is so great. I mean, and 
the individual. And I was just thinking ways that you all 
could--I guess it is like with witness protection. I mean, you 
would have thought that I was talking about something that 
should have zero attention in the Congress. And to me it goes 
to the very essence of our system of justice.
    So do you all have any recommendations, you all are dealing 
with these things on a daily basis, how we get over what you 
all are talking about to our colleagues. I know that it is a 
flip, but I am just curious I mean why do you think folk do not 
see what you all see or understand it? Judge? I am sorry. It is 
like we are walking down the hall in Washington and you got 30 
Congressman and you just want to say ``Congressman, 
Congressman,'' and everybody turns around.
    Judge Young.
    Judge Young. I think that many times, Congressman, public 
perception drives public policy. And we are seeing it 
especially in the area of juvenile justice where because 
everything, the media is saturated with gangs everywhere you 
go, we have noticed that there has been a shift away from 
focusing on drug treatment and intervention programs toward 
suppression even in our city. So one of the things that I think 
is important is that our decisions be research based. That is 
why we are fortunate to have the University of Maryland and 
University of Baltimore collaborate so that we are making 
decisions based on research as opposed to what the media tells 
us.
    I think there is an additional problem, and that is many 
times we go into communities and we tell communities what is 
best for them rather than bringing them in at the front end and 
asking them help us determine what you need through needs 
assessments.
    And so one of my frustrations, if you will, with our 
approach to juvenile justice is the 6 o'clock news determines 
what is a priority versus what the young people in this city 
actually need.
    Mr. Kucinich. As I am listening to this testimony and to 
answers to the questions, and I am sure everyone involved in 
this hearing whether you are at the panel or on this dias or 
whether you are sitting in the audience has to be thinking 
about the connection between drug abuse, mental health and 
crime and how many people are in our prisons are people who did 
not get mental health treatment or treatment for an addiction. 
And so the prisons end up being places where the people are 
just held because their whole reality is distorted. I mean in a 
sense if crime by definition is some behavior that is anti-
social, if someone goes through that labyrinth of drug use and 
with the additional crippling factor of let's say a mental 
health problem, how would they know what social is? How would 
anyone know what normal is?
    Judge, would you like to comment on that?
    Judge Heller. I think they would not know. And I think your 
observation brought to mind the following: One, we need 
different models. Although drug abuse and mental health 
problems these days in this country equate to incarceration, 
that is costly, it is ineffective and it is not working and it 
is clogging the courts; two, I think something Judge Young just 
said, we are focusing as judges when we already have a problem 
in the criminal justice system, which is almost at the end of 
the road. All of us can focus much early on.
    I know that the Johns Hopkins Bloomberg School of Public 
Health has just started an Urban Health Institute where we are 
going to actually look, this sounds ridiculously, prenatally, 
early childhood education and the wrap around support so that 
from the very beginning perhaps we will not have a next 
generation here, but we can try to make health----
    Mr. Kucinich. Well, yes, it actually makes sense. Because 
you know we know from studies of prenatal that if a mother is 
taking a lot of alcohol or drugs that has an effect on the 
developing fetus. And so it is good to see that.
    You know, obviously, Congressman what we are looking at is 
a system here. And to talk about it prenatally. But then you 
look at all the societal influences that occur as well; does 
someone have a roof over their head, is there food on the 
table, is there a job, is there some kind of an education, are 
there goals out there that children have aspirations? I mean, 
these things all come into play in terms of whether there is 
enough social organization and stability to permit mental 
health, a healthy mental climate to develop and whether or not 
conditions develop that would precipitate drug use. I mean, 
even in the best homes where everything seems to be stable you 
can have drug abuse. But, you know, as you are talking I am 
just drawing kind of diagrams here. And you think about all the 
factors that are involved are and you are actually dealing with 
them as best you can, which has really said something about 
this community and about your Congressman.
    I just wanted to make that observation.
    And let me, perhaps, ask one final question here of Judge 
Weitzman. Did you think that the problem solving court should 
be expanded to include individuals who have committed acts of 
violence? And could there be specific conditions on violent 
offenders that address a monitor and attempt to rectify their 
violent actions?
    Judge Weitzman. The research is out on that. There are some 
schools of thought that feel that violent offenders should be 
in a whole another category of themselves. That we are really 
trying to target people that but for their substance abuse or 
other problems such as mental health, that they would not be 
committing crimes. Violence tends to be psychopathic and is 
higher on the risk scale. So they need other kinds of support 
such as better monitoring perhaps.
    Yes, any problem solving court I think can help criminal 
justice issues. I think the complexity of it and the complexion 
of it will look very different than the problem solving courts 
that deal with the strictly social issues that we have.
    Mr. Kucinich. Thank you.
    Congressman Cummings to you for any final questions.
    Mr. Cummings. Yes, just one question. Judge Heller, or all 
three of you judges, the key I guess to the effectiveness of 
the Drug Courts is having a hammer over the head sort of, so to 
speak, to say that if you do not do this and you have the 
certain things that they have to do. You say appear 5 days a 
week and get the treatment, and get the education and whatever; 
that they then may very well end up serving the sentence. But 
then there are some who do not do it. I think you said 76 
percent, Judge?
    Judge Heller. In the beginning. Right now we have almost 70 
percent success rate. But that means 30 percent do not make it.
    Mr. Cummings. Right. And what do you find? I mean, first of 
all when you look at all programs, that is a phenomenal rate. 
But I am just wondering about that other 30 percent or so 
percent that are not.
    I mean what seems to be the kind of things that you hear? 
Do you think they are more the dual situation problems? Do you 
think it family problems that you just cannot seem to get to? I 
am just curious.
    Judge Young. I can tell you with many of the juveniles who 
do not succeed in Juvenile Drug Court it is because even after 
you get them clean, and even after you get them coming to the 
program every night they go back to the same environment. There 
is a great need to be able to help families transition, not 
just the individual.
    We had a young man who was almost murdered. He was shot and 
even after he was in rehab and got himself together, his mother 
lost her Section 8 voucher. So she moved right back to the 
neighborhood where he had been shot. And so it's just an 
ongoing need to help people, not only move up but also to move 
out.
    Mr. Cummings. That reminds me of a story when I had an 
after care program some years before I went to Congress. And we 
had a young man who had come out of the Boot Camp program. The 
mother of his child lived on the east side and the guys in the 
neighborhood had told him that if you come back on the east 
side, we're going to kill you. Remember that? Well, we have 
some people in the audience who know about that case.
    And he decided that he was going to do it anyway. You know, 
he was not going to be--and we begged him not to do that, to 
find a way. We told him we would help move her on the west 
side. But his manhood and other--you know, he's gone.
    And I say that to say I guess some of the issues are so 
difficult and they go so far back. I tell my staff that a lot 
of the problems that we deal with are problems that were 
created, going back to what you were saying, Mr. Chairman, when 
folks were little kids. And trying to deal with that is very, 
very difficult.
    And so, Mr. Leaf, you have something on that? You look like 
you need to say something?
    Mr. Leaf. Well I think, as you said, some of the people in 
the courts who are going through that also have little kids. 
And so this is an opportunity. Again people are talking about 
needing to support families, people do a lot of things for 
their family including the illegal activities. And I think 
recognizing that some of the relief won't be effective unless 
it is also supporting the family needs besides the individual 
needs.
    Mr. Cummings. Right. Right.
    Mr. Leaf. And your earlier question about how to convince 
some of your colleagues. Unfortunately, ex-offenders and people 
in recovery and even people with mental disorders, there's a 
certain amount of stigma from being physical for some of them. 
And as with any legislation, without having a consumer group, 
without having a vested constituency who is actively advocating 
for their own needs, it is probably very difficult to convince 
legislators who have lots of demands on them where there are 
lots of organized lobbying going on. And so how to support the 
efforts of the ex-offenders, the people in recovery who are 
successful. Some of them, you know, are in recovery for life 
are very successful businessmen, academics. You know, it's the 
whole range of both those individuals and ex-offenders. And you 
can have it support those efforts so that they can be vocal and 
visible about their successes, not about their problems. But 
about their successes and their identification of where 
additional successes could come from I think are part of the 
solution.
    Mr. Cummings. Yes?
    Judge Heller. I think that there are some people that will 
not make it because of their mental illness, their background, 
their age or they just do not want to make it. I mean the 
reality is you can't have everyone succeed. But, having said 
that, every time we have had people drop out we look to see 
what we could do better and might have done differently and 
have kept that person in.
    I do not really believe it is the Judge that is sitting 
there with the gavel. I do not know that any of us actually use 
a gavel, or I know as we are saying symbolically. I think what 
keeps people in the program to succeed is quality care, quality 
drug treatment. I think the structure is so important. And then 
I heard a word at the previous hearing which I really must use, 
and it is hope. And I think by letting people begin to think 
they actually can change; these people have given up hope, you 
can make a change. You can control our addiction. You can get a 
job. You can get an education. You can actually move your 
housing. And we are going to structurally be there with you for 
the next few years while you do it. I think it does help 
succeed.
    Mr. Cummings. Thank you. Thank you all very much.
    Mr. Kucinich. I want to thank the members of the panel for 
their participation. And when you hear your testimony and your 
answers, it is very clear that what your lives have been about 
is saving other people's lives. And there cannot be any higher 
service. And so thank you for what you do, continue to do.
    And this has been a hearing of the Oversight and Government 
Reform Committee, the Subcommittee on Domestic Policy. I am 
Dennis Kucinich, chairman of the committee.
    We want to thank the University of Maryland School of Law 
for letting us use their Ceremonial Moot Courtroom. I think we 
agree these facilities are beautiful and have been conducive to 
this hearing.
    The title of the hearing has been Combating Drug Abuse and 
Drug-Related Crime: What is Working in Baltimore. We know what 
is working and who is working at it, and we want to thank all 
of you for making it happen.
    Again, to Congressman Cummings. Thank you for suggesting 
this hearing, for facilitating it. I look forward to continuing 
to work with you on all these matters of importance to our 
communities and to urban America.
    This committee stands adjourned. Thank you all for being 
here.
    [Whereupon, at 12:06 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
